Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL

  SECURITY CONTROLS OVER THE
  IMPLEMENTATION OF PERSONAL
 IDENTITY VERIFICATION CARDS AT
 THE DEPARTMENT OF HEALTH AND
     HUMAN SERVICES WERE
INADEQUATE DUE TO LACK OF SOME
ESSENTIAL INFORMATION SECURITY
         REQUIREMENTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                           Thomas M. Salmon
                                        Assistant Inspector General
                                             for Audit Services

                                                 July 2014
                                               A-18-12-30410
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
 Security controls over the implementation of Homeland Security Presidential Directive
 12 at the Department of Health and Human Services were inadequate because essential
 information security requirements were not implemented.


This report provides an overview of the results of our audit of the Department of Health and
Human Services (HHS) implementation of Homeland Security Presidential Directive 12
(HSPD-12). Due to the sensitive nature of the specific findings identified during our audit, only
a summary of the findings are included in this report. We have provided more detailed
information and recommendations to HHS so that it can address the issues we identified.

WHY WE DID THIS REVIEW

The HSPD-12, “Policy for a Common Identification Standard for Federal Employees and
Contractors,” August 27, 2004, mandated the promulgation by 2006 of a Federal standard for
secure and reliable forms of identification for Federal employees and contractors and mandates
the use of governmentwide identification credentials for employees and contractors. The
HSPD-12 and other Federal guidance require executive departments and agencies to (1)
implement the standard for identification issued to Federal employees and contractors in gaining
physical access to controlled facilities and logical access (the authorized and authenticated access
to computer applications and data files) to controlled information systems and (2) implement and
maintain adequate security for all their support systems and applications. We evaluated HHS’
progress in implementing a reliable and effective system of personal identity verification (PIV)
in compliance with the HSPD-12.

Our objective was to determine whether HHS complied with Federal guidance when
implementing its HSPD-12 system.

BACKGROUND

Federal guidance has established the minimum architecture and technical requirements for a
Federal personal identification system, including requirements for PIV, registration, card
issuance, and interoperability of PIV credentials and systems among Federal Departments and
agencies, as well as detailing technical specifications. Federal guidance also provides a
comprehensive framework for ensuring the effectiveness of information security controls over
information resources and provides for development and maintenance of the minimum controls
required to protect Federal information and information systems.

HHS’s mission is to protect the health of all Americans and provide essential human services,
especially for those who are least able to help themselves. HHS’s programs are administered by
its divisions. In addition to the services they deliver, the HHS programs enable the collection of
national health and other data.




Security Controls Over HHS’s Personal Identity Verification Systems (A-18-12-30410)                  1
At the beginning of our audit, the HHS Program Management Office (PMO) was responsible for
implementing and monitoring HSPD-12 systems. The PMO took a decentralized approach to
implementing the HSPD-12, providing the same guidance to the divisions but allowing each one
to determine how it implemented the HSPD-12. During our audit, the overall responsibility for
the implementation and monitoring of the HSPD-12 was transitioning from the PMO to the
Office of Security and Strategic Information (OSSI).

HOW WE CONDUCTED THIS REVIEW

We evaluated the HHS implementation of the HSPD-12 and the security controls over a sample
of its critical HSPD-12 systems to determine whether the guidance had been followed.
Specifically, we assessed (l) whether the HHS PIV card application and issuance processes were
effective and complied with HHS guidance and regulations and (2) whether information security
controls over critical HHS PIV systems complied with Federal information security standards.

We reviewed the following information technology (IT) security controls in effect as of August
2012: security management, program and system-specific controls, encryption, change controls,
Web vulnerability management, and physical security. Appendix A contains a summary of our
audit scope and methodology.

Risk Level Definitions for Findings

To assign risk levels (i.e., High, Medium, Low) to our findings, we used the risk scale of the
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-30, Guide
for Conducting Risk Assessments, Appendix D, which describes the need for corrective actions
and the relative timeframes in which they must occur based on the levels of risk associated with
system vulnerabilities.

WHAT WE FOUND

HHS did not always comply with Federal guidance when implementing its HSPD-12 system.
Specifically, security controls over the implementation of the HSPD-12 at HHS were inadequate
because essential information security requirements were not implemented. We found six
categories of vulnerabilities:

    •   Enrollment and issuance process—The implementation of the HSPD-12 lacked
        controls to ensure that all credentialing requirements were met and that training was
        provided to employees who performed HSPD-12 roles. In addition, a standard had not
        been established under which key roles had to be held by different employees to ensure
        adequate separation of duties, and verify integrity of PIV credentials (high risk).

    •   Deactivation of PIV cards—PIV cards were not deactivated in a timely manner (high
        risk).




Security Controls Over HHS’s Personal Identity Verification Systems (A-18-12-30410)                2
    •   Security over system access—The implementation of the HSPD-12 lacked controls to
        ensure that management had implemented policies and procedures associated with access
        to the PIV system and protection of sensitive system information (high risk).

    •   Security management—The data center facility’s network firewall configuration
        policies did not comply with HHS policy or guidelines. Also, security management
        controls, including patch management, antivirus management, and configuration
        management, were not implemented on HSPD-12 workstations at any of the division PIV
        Card Issuance Facilities (PCIF) that we audited. HHS allowed nongovernmental
        computers to connect to card management systems (high risk).

    •   Physical security—Physical security controls, which help ensure that physical access to
        key areas within the PCIF is restricted to authorized personnel, were not adequate for the
        PIV system (high risk).

    •   Web vulnerabilities—Vulnerabilities were identified in 17 categories on the HHS PIV
        system Web portal test sites that were scanned (moderate risk).

Due to the sensitive nature of the specific findings identified during our testing, only a summary
of the findings are included in this report. We have provided more detailed, technical findings to
HHS/OSSI.

WHAT WE RECOMMEND

We recommend that HHS/OSSI implement essential security requirements in the areas of
enrollment and issuance, deactivation of PIV cards, system access, security management,
physical security, and PIV Web portals.

This report summarizes our recommendations due to the sensitive nature of the information
discussed. We have provided more detailed recommendations to HHS/OSSI.

AUDITEE COMMENTS

In written comments on our draft report, OSSI concurred with 14 recommendations and did not
concur with 4 recommendations. Their comments also described the actions they will take to
implement our recommendations.




Security Controls Over HHS’s Personal Identity Verification Systems (A-18-12-30410)                  3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed selected IT security controls in effect as of August 2012. These controls were
security management, program and system-specific controls, encryption, change controls, Web
vulnerability management, and physical security. We performed our fieldwork from August
2012 to March 2013 at select HHS PCIF locations.

HSPD-12 security management did not permit us to complete vulnerability scans during the
audit period. Therefore, we were unable to obtain sufficient evidence to determine whether the
vulnerabilities we identified in the test environment were corrected in the production
environment and that other more serious Web vulnerabilities did not exist. We also were unable
to determine whether the vulnerabilities we identified in the test environment were remediated
by corrective actions.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the HSPD-12 program policies and procedures;

    •   interviewed the HSPD-12 program employees who were knowledgeable of the areas we
        addressed;

    •   assessed the HSPD-12 program’s program and system-specific controls;

    •   reviewed the HSPD-12 program’s change controls;

    •   judgmentally selected 50 PIV applicants at divisions to determine the following:

            o whether PCIFs were screening applicant fingerprints before authorizing and
              issuing PIV cards and

            o whether PCIFs verified the existence and results of a background investigation for
              each applicant before card issuance;

    •   judgmentally selected eight role holders at divisions to determine whether training was
        provided for all of the roles they held;

    •   assessed the key system roles throughout the PIV card enrollment and issuance process to
        determine whether there was separation of duties;

    •   reviewed active accounts to determine whether PIV cards were deactivated in a timely
        manner for terminated and separated personnel within the past year;



Security Controls Over HHS’s Personal Identity Verification Systems (A-18-12-30410)               4
    •   assessed the HSPD-12 program’s security management controls on PCIF workstations
        and servers to include patch, antivirus, and configuration management to determine
        whether they were implemented;

    •   assessed the HSPD-12 program’s physical security at select HHS PCIF locations;

    •   reviewed the HSPD-12 program’s Web vulnerability management and scanned two
        HSPD-12 Web portal test sites; and

    •   discussed our findings with division management.

We assigned risk levels to these vulnerabilities according to NIST Special Publication (SP)
800-30, Guide for Conducting Risk Assessments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Security Controls Over HHS’s Personal Identity Verification Systems (A-18-12-30410)            5
